2311 Douglas Street

COCKLE

L eg al B tie fs E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No
DEPUTY SHERIFF MARTIN MARQUARDT,
Petitioner,
Vv.
WILLIAM FLETCHER,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 11th day of July, 2019, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
RICHARD H. SEAMON LORNA K. JORGENSEN
1297 Highland Drive Ada County Deputy
Moscow, Idaho 83843 Prosecuting Attorney

Counsel of Record
JAN M. BENNETTS
Ada County Prosecuting
Attorney

200 W. Front Street,
Room 3191

Boise, Idaho 83702
Telephone: (208) 287-7700
Email: ljorgensen@
adacounty.id.gov
Counsel for Petitioner

Subscribed and sworn to before me this 11th day of July, 2019.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

a, x Ellie Qudiah, Chile

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38067
William Fletcher

6576 W. Douglas Street
Boise, ID 83705
208-918-6917

No email address available
*3 copies

Note:
An electronic copy of the Petition for a Writ of Certiorari and Petition Appendix was
also served on:

Sarah Elizabeth Peterson
Coblentz Patch Duffy & Bass, LLP
One Montgomery Street

Suite 3000

San Francisco, CA 94104

Email: ef-sep@cpdb.com

*No paper copies
